@OCKLE

2311 Douglas Street al Bri E-Mail Address:
Omaha, Nebraska 68102-1214 Le 8 tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-873

GEOPHYSICAL SERVICE, INCORPORATED,
Petitioner,

v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of May, 2020, send out from
Omaha, NE | package(s) containing 3 copies of the REPLY TO BRIEF IN OPPOSITION in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOEL B. ROTHMAN DON CRUSE
SRIPLAW, P.A. Counsel of Record
21301 Powerline Road LAW OFFICE OF DON CRUSE
Suite 100 1108 Lavaca Street
Boca Raton, Florida 33433 Suite 110-436
(561) 404-4350 Austin, Texas 78701
joeLrothman@sriplaw.com (512) 853-9100
don.cruse@

texasappellate.com

Subscribed and sworn to before me this 8th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

  
   

i GENERAL HOTARY-State of Nebraska
RENEE J, GOSS
My Comm. Exp. September 5, 2023

0. Loca Oudrae-h. Obl

‘BS

 

 

Notary Public / Affiant
 

Attorneys for Respondent

Jonathan Saul Franklin
Counsel of Record

 

Norton Rose Fulbright US, LLP 202-662-0466
799 9th Street NW

Suite 1000

Washington, DC 20001

jonathan. franklin@nortonrosefulbright.com

Party name: TGS-NOPEC Geophysical Company

 

 
